No. 20A99
In the
Supreme Court of the United States

ORLANDO HALL AND BRANDON BERNARD,
Applicants,
v.
WILLIAM P. BARR, ATTORNEY GENERAL, et al.
Respondents.
On Application for Stay

REPLY IN SUPPORT OF STAYS OF EXECUTION
Executions Scheduled for November 19 (Hall) and December 10 (Bernard)

Robert C. Owen
Law Office of Robert C. Owen, LLC
53 West Jackson Blvd., Suite 1056
Chicago, IL 60604
(512) 577-8329
Amy Lentz
Steptoe & Johnson LLP
1300 Connecticut Avenue NW
Washington, D.C. 20036
Tel: 202.429.1350
alentz@steptoe.com
Attorneys for Orlando Hall

Ginger D. Anders
Counsel of Record
Jonathan S. Meltzer
Brendan B. Gants
Xiaonan April Hu
MUNGER, TOLLES & OLSON LLP
601 Massachusetts Ave. NW
Suite 500E
Washington, D.C. 20001
Tel: (202) 220-1100
Fax: (202) 220-2300
Ginger.Anders@mto.com
Attorneys for Brandon Bernard

For the benefit of the Court, and in the interest of time, Applicants address only Respondents’ arguments in Sections I.A (Opp. 19-26) and I.B (Opp. 26-29) of their stay opposition,
which urge this Court to deny the requested stays on alternate grounds—grounds on which the
court of appeals ruled against Respondents. With respect to the issues addressed in Applicants’
Stay Application, Applicants rest on the arguments made therein.
Applicants prevailed in the D.C. Circuit on their arguments that the Federal Food, Drug
and Cosmetics Act (FDCA) applies to drugs used for lethal injection and that private parties may
sue under the APA to prevent violations of the APA. See App. 23a-25a. As the court below
noted, Applicants prevailed on both of these issues due to established and longstanding D.C.
Circuit precedent. See App. 24a (citing Cook v. FDA, 733 F.3d 1 (D.C. Cir. 2013); Chaney v.
Heckler, 718 F.2d 1174, 1179-1182 (D.C. Cir. 1983), rev’d on other grounds, 470 U.S. 821
(1985)).

As respondents themselves note in their opposition (at 19), the FDCA creates a

“complex set of requirements to ensure that every ‘drug or device’ subject to the statute is ‘safe
and effective’ for its intended use.” Respondents’ opposition shows that the question of the
proper interpretation of the FDCA is an important issue of statutory interpretation that has
implications beyond the precise circumstances here—including implications for the FDCA’s
importation provisions, as well as (in the government’s view) other means of execution. Opp.
21-23. Comprehensive statutory schemes such as the FDCA are applied across myriad contexts.
Any decision about the application of the FDCA that could have broad consequences, including
outside the lethal injection context, should not be made absent a decision by this Court that
plenary review is warranted, and after opportunity for that plenary review.
In the context of the FDCA’s application to drugs used for lethal injection, Respondents’
opposition again makes clear the necessity of Supreme Court review. While the D.C. Circuit has

1

long held that drugs used for lethal injection are subject to the FDCA, see Cook 733 F.3d at 1011, Respondents note that OLC has taken the opposite position, see Resp. App. 1a-26a. And as
the court below stated, this Court “has never resolved ‘the thorny question of the FDA’s
jurisdiction” over the drugs used in lethal injections.’” Heckler v. Chaney, 470 U.S. 821, 828
(1985) (citation omitted). Respondents made clear in their Opposition that they believe that
review on this issue is warranted: “This Court may wish to clarify that denial of injunctive relief
on applicants’ FDCA claim is appropriate . . . because there is no FDCA violation here at all.”
Op. 38. Applicants agree that this important and unresolved issue is worthy of this Court’s
attention, but certainly not in a per curiam decision reached without the benefit of this Court’s
typical determination regarding whether plenary review is warranted and then the deliberate
consideration such plenary review makes possible. Respondents’ opposition thus demonstrates
that the proper course is to grant the stay motion to permit Applicants to file a petition for a writ
of certiorari— at which point the Government will be free to raise its FDCA issues in a crosspetition.
Similarly, the government asks this Court, without full briefing or argument, to reverse
the D.C. Circuit and provide a sweeping ruling that private individuals lack a cause of action
under the APA to challenge a violation of the FDCA. Opp. 26-29. The government’s argument
would have broad implications outside the context of challenges to a lethal injection protocol,
and the D.C. Circuit was disturbed enough by those arguments to request a supplemental letter
from the government explaining the reach of its contentions. See No. 20-5329, (D.C. Cir.),
11/17/2020 letter from U.S.

But as this Court has made clear, the bar is exceptionally high for

determining that a statutory scheme has precluded review, and the Court instead applies a
“presumption favoring judicial review of administrative action.” Sackett v. EPA, 566 U.S. 120,

2

128 (2012). At minimum, the Court should consider whether plenary review is warranted before
presumptively holding, as the government urges, that no private party can ever bring suit to
challenge an action that violates the FDCA.
As Respondents’ Opposition makes clear, both Applicants and Respondents believe that
the D.C. Circuit made errors that warrant this Court’s intervention. For that reason, the Court
should grant Applicants’ Stay Application and allow all parties to seek certiorari on the weighty
issues presented by the decision below.
CONCLUSION
For the foregoing reasons, this Court should stay Applicants’ executions pending
disposition of their petition for certiorari.
Dated: November 19, 2020

Robert C. Owen
Law Office of Robert C. Owen, LLC
53 West Jackson Blvd., Suite 1056
Chicago, IL 60604
(512) 577-8329
Amy Lentz
Steptoe & Johnson LLP
1300 Connecticut Avenue NW
Washington, D.C. 20036
Tel: 202.429.1350
alentz@steptoe.com
Attorneys for Orlando Hall

Respectfully submitted,

/s/ Ginger D. Anders.
Ginger D. Anders
Counsel of Record
Jonathan S. Meltzer
Brendan B. Gants
Xiaonan April Hu
MUNGER, TOLLES & OLSON LLP
601 Massachusetts Ave. NW
Suite 500E
Washington, D.C. 20001
Tel: (202) 220-1100
Fax: (202) 220-2300
Ginger.Anders@mto.com
Attorneys for Brandon Bernard

Attorneys for Applicants Orlando Hall and Brandon Bernard

3

